INSPECTOR GENERAL’S SEMIANNUAL REPORT TO CONGRESS

         Appalachian Regional Commission
           October 1, 2009–March 31, 2010
April 2010


MEMORANDUM FOR                  THE FEDERAL CO-CHAIR

SUBJECT:                        Semiannual Report to Congress

In accordance with the requirements of the Inspector General Act Amendments of 1988, Public Law
100-504, and the Inspector General Reform Act of 2008, Public Law 110-409, I am pleased to submit
the Office of Inspector General Semiannual Report to Congress.

This Semiannual Report to Congress summarizes the activities of our office for the 6-month period
ending March 31, 2010. During this semiannual period, we issued 4 reports. Two other reports are soon
to be issued in draft. During this period, the Inspector General continued to serve as representative on
the Council of the Inspectors General on Integrity & Efficiency (CIGIE).

The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of 1988,
provides that this report be forward to appropriate Congressional committees within 30 days and that
you provide whatever additional comments you consider appropriate.

I appreciate the Commission’s and your cooperation with the Office of Inspector General in the conduct
of our operations.




Clifford H. Jennings
Inspector General

Enclosure
                                             TABLE OF CONTENTS


                                                                                                                           Page

       Executive Summary                                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

       Purpose and Requirements of the OIG Semiannual Report                                               . . . . . . . . . . . iv

 I.    Introduction                                              .................................1

 II.   Background                                                .................................1

       Appalachian Regional Commission                           .................................1

       Office of Inspector General                               .................................5

III.   OIG Activity                                              .................................6

       Audits, Inspections, Evaluations & Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

       Investigations                                            .................................7

       Other                                                     .................................8

 IV. Reporting Fraud, Waste, and Abuse                           .................................9

 V.    Legislative & Regulatory Review                           .................................9


Appendices A.            Schedule of Reports Issued,
                         October 1, 2009 thru March 31, 2010

                B.       Schedule of Reports with Questioned or Unsupported Costs

                C.       Schedule of Reports with Recommendations that Funds be put to Better Use
                         and Summary of Management Decisions

                D.       Schedule of Reports with Recommendations that Funds be put to Better Use
                         and Summary of Management Actions

                E.       Definition of Terms Used
                                      EXECUTIVE SUMMARY

ARC grant operations represent the most significant part of ARC’s programs. We previously issued two
reports related to grant operations with most of the recommendations still being implemented. As a
result, we feel it necessary to mention the report’s findings and recommendations, although we will not
elaborate upon them in this section of the report. A brief synopsis of the report is discussed below under
OIG Activities. For this reporting period, the Office of Inspector General (OIG) worked on projects
ranging from finishing implementation of an audit recommendations database to the performance and
monitoring of audits and inspections. We also issued four reports, are monitoring a performance
measures audit, a financial statement audit, and are performing an inspection on grant compliance
issues. Below are summaries of our activities, we mention first the financial statement audit to highlight
several issues of concern, i.e., its lateness and our concerns with child agency (ARC funds under the
control of other agencies) reporting requirements.

The Appalachian Regional Commission's financial statements are audited by an outside independent
auditor. The OIG monitors the activities of the auditor to help ensure compliance with applicable
statutes, OMB guidelines, and auditing standards. Performance and Accountability Report submissions,
including the financial statement audit, were required by November 16th for 2009.

The 2009 financial statement audit was not issued timely and was still outstanding as of March 31, 2010.
The major issues in completing the audit timely stem from ARC’s adoption in 2007 of federal financial
statement reporting and disclosure requirements. Difficulties preparing the financials in accordance with
these requirements were numerous but some of the most significant issues were: getting timely and
accurate financial information from child agencies; preparing the Statement of Financing footnote
disclosure; and ensuring records were kept accurately, especially ensuring the accuracy of the budgetary
accounts.

Although many of the problems in getting accurate child financial information have improved, continual
effort on the part of ARC and the child agencies is necessary to maintain the reporting process. Past
concerns and efforts have included:

     Providing activity and balance reports in a timely manner.
     Child agency reports were not always accurate or in agreement with previously submitted
      reports.
     ARC personnel had to reconcile activity and balances with the records of the child
      agencies.
     ARC contracted accounting and auditing service fees increased as assistance was needed for
      reconciliation and verification of reported amounts (because of the immateriality of amounts to
      the Child agencies, ARC auditors had to do additional audit work on child agency funding and
      could not rely on the work of the child agency auditors).
     ARC managers had to expend effort to provide management representations as to the validity of
      child reported grant activity fund usage and balances; therefore, they had to understand and
      obtain confidence in child agency internal controls.


                                                    ii
In addition to the activities described above, we issued four reports dealing with a grantee’s performance
in West Virginia. These reports made 15 recommendations related to the findings which concern
recordkeeping, the location of service facilities, and grantee reporting. Discussions continue with
management concerning closure of these reports’ findings.
Also, over the last several months, we have been finalizing the installation and customization of a
recommendation tracking system. The system is maintained by our office, but provides current
information about the status of OIG recommendations to selected ARC users.

Aside from our financial statement audit monitoring activity and the issuance of four grantee reports, we
have been monitoring an audit of ARC performance measures and preparing an inspection report on
grant management compliance.

During the reporting period, the IG served on the Council of the Inspectors General on Integrity &
Efficiency (CIGIE). The OIG reviewed legislation that affects the OIG as well as the entire IG
community.




                                                    iii
                          PURPOSE AND REQUIREMENTS OF THE
                   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT

The Inspector General Act of 1978 requires the IG to keep the Federal Co-Chair and Congress fully and
currently informed about problems and deficiencies in the Commission's operations and the necessity for
corrective action. In addition, the Act specifies that semiannual reports will be provided to the Federal
Co-Chair by April 30 and October 31 and to Congress 30 days later.

The Federal Co-Chair may transmit comments to Congress along with the report but may not change
any part of the report. The specific requirements prescribed in the Act, as amended (Public Law 100-
504), are listed below.
                                             Reporting Requirements


Section 4(a)(2)     Review of legislation and regulations                                                   Page 9

Section 5(a)(1)     Problems, abuses, and deficiencies                                                      Pages 6-8

Section 5(a)(2)     Recommendations with respect to problems, abuses, and deficiencies                      Pages 6-8

Section 5(a)(3)     Prior significant recommendations not yet implemented                                   **

Section 5(a)(4)     Matters referred to prosecutive authorities                                             Page 8

Section 5(a)(5)     Summary of instances where information was refused                                      *
and    6(b)(2)

Section 5(a)(6)     Listing of audit reports showing number of reports and dollar value of                  App A
                    questioned costs

Section 5(a)(7)     Summary of each particularly significant report                                         **

Section 5(a)(8)     Statistical table showing number of reports and dollar value of questioned              App B
                    costs

Section 5(a)(9)     Statistical table showing number of reports and dollar value of                         App C
                    recommendations that funds be put to better use and summary of
                    management decisions

Section 5(a)(10)    Summary of each audit issued before this reporting period for which no                  *
                    management decision was made by end of the reporting period

Section 5(a)(11)    Significant revised management decisions                                                *

Section 5(a)(12)    Significant management decisions with which the Inspector General                       Page 6
                    disagrees

Section 5(b)(3)     Statistical table showing number of reports and dollar value of
                    recommendations that funds be put to better use and summary                             App D
                    of management actions
*       None.
**      See references to Sections 5(a)(1) and 5(a)(2) for discussion of significant reports (including recommendations).



                                                               iv
I.       INTRODUCTION

The Inspector General Act Amendments of 1988 (P.L. 100-504) provides for the establishment of an
Office of Inspector General (OIG) at 30 designated Federal entities, including the ARC. The ARC OIG
became operational on October 1, 1989, with the appointment of an IG and provision of budgetary
authority for contracted audit and/or investigation activities.


II.      BACKGROUND


         A.      APPALACHIAN REGIONAL COMMISSION

The Appalachian Regional Development Act of 1965 (P.L. 89-4) established the Appalachian Regional
Commission. The Act authorizes a Federal/State partnership designed to promote long-term economic
development on a coordinated regional basis in the 13 Appalachian States. The Commission represents
a unique experiment in partnership among the Federal, State, and local levels of Government and
between the public and private sectors. It is composed of the Governors of the 13 Appalachian States
and a Federal representative who is appointed by the President. The Federal representative serves as the
Federal Co-Chair with the Governors electing one of their numbers to serve as the States' Co-Chair.

     -   Through joint planning and development of regional priorities, ARC funds are used to assist and
         encourage other public and private resources to address Appalachia's unique needs. Program
         direction and policy are established by the Commission (ARC Code) with the vote of a majority
         of the State members and the affirmative vote of the Federal Co-Chair. Emphasis has been
         placed on highways, infrastructure development, business enterprise, energy, and human
         resources programs.

     -   Administratively, the Office of the Federal Co-Chair, with a staff of 8, and the Commission, with
         a staff of 45, is responsible for ARC operations. The States maintain an Office of States'
         Representative (2 persons) that has primarily liaison responsibilities. All personnel are located in
         Washington, DC. The Commission staff's administrative expenses, including salaries, are funded
         jointly by Federal and State funds; the States' Representative staff is funded entirely by the
         States; and the Federal Office staff is funded entirely from Federal funds.

     -   The Commission's appropriation for FY 2010 is $76 million. ARC was reauthorized in October
         2008. In addition, in March 2010 the Highway Trust Fund, under Section 1101 of the Safe,
         Accountable, Flexible, and Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-
         LU) received short-term funding through the end of Fiscal Year 2010. The funding provides
         approximately $439.5 million for construction of the Appalachian Development Highway
         System which is under ARC’s programmatic jurisdiction, as provided for under Section 201 of
         the 1965 Appalachian Regional Development Act.

     -    ARC’s non- ADHS funds are distributed to state and local entities in accordance with an
          allocation formula intended to provide fair and reasonable distribution of available resources.
         ARC staff has responsibilities for program development, policy analysis and review, grant
         development, technical assistance to States, and management and oversight.


                                                      1
-   In order to avail itself of federal agency expertise and administrative capability in certain areas,
    ARC often relies on other departments and agencies for program administration, especially with
    respect to highways and infrastructure projects. For example, the Appalachian Regional
    Development Act authorizes the Secretary of Transportation to administer the Commission's
    highway programs, with the Commission retaining responsibility for priorities, highway
    locations, and fund allocations.




                            ARC ORGANIZATION CHART




                                                 2
3
4
       B.     OFFICE OF INSPECTOR GENERAL

The ARC OIG is an independent audit and investigative unit. An independent Inspector General who
reports directly to the Federal Co-Chair heads the OIG.

              Role and Authority

The Inspector General Act of 1978 (P.L. 95-452), as amended in 1988, states that the IG is responsible
for (1) audits and investigations; (2) review of legislation; and (3) recommendation of policies for the
purpose of promoting economy and efficiency in the administration of, or preventing and detecting fraud
and abuse in, the program and operations of the establishment. In this regard, the IG is responsible for
keeping the Federal Co-Chair and Congress fully informed about the problems and deficiencies in ARC
programs and operations and the need for corrective action. The IG has authority to inquire into all
ARC programs and activities that are federally funded. The inquiries may be in the form of audits,
surveys, investigations, personnel security checks, or other appropriate methods. The two primary
purposes of these inquiries are (1) to assist all levels of ARC management by identifying and reporting
problem areas, weaknesses, or deficiencies in procedures, policies, program implementation, and
employee conduct and (2) to recommend appropriate corrective actions.

              Relationship to Other Principal ARC Offices

The States’ and Federal Co-Chairs, acting together as the Commission, establish policies for ARC's
programs and its administration. These policies are organized and provided under the ARC Code and
implemented by the Commission staff, which is responsible for monitoring project performance and
providing technical assistance as needed. The Federal Co-Chair, as the Federal fiscal officer, is
responsible for the proper use and protection of Federal funds, for ensuring compliance with applicable
Federal laws and regulations, and for taking appropriate action on conditions needing improvement,
including those reported by the OIG. The operation of the OIG neither replaces established lines of
operating authority nor eliminates the need for the Commission offices to take reasonable measures to
protect and enhance the integrity and effectiveness of their operations. All Commission offices are
responsible for monitoring and evaluating the programs entrusted to them and reporting information or
incidences needing further audit and/or investigation to the IG.

              Funding and Staffing

The OIG funding level for FY 2010 is $612,000. Staffing consists of the Inspector General, an Assistant
Inspector General for Audit, and a confidential assistant. Grant review activities continue to emphasize
use of contracted services (e.g., independent public accounting firms or other OIG offices) supplemented
by programmatic and performance reviews directed by OIG staff. Investigative assistance is provided
by other OIG offices on an as-needed basis through memoranda of understanding. This approach is
deemed the most appropriate to date in view of the nature of ARC operations and limited resources.

In order to comply with P.L. 110-409, the Inspector General Reform Act of 2008, the OIG included
funding for FY 2010 that includes reimbursement of other IG’s for counsel and investigative services
via a Memorandums of Understanding. Future year funding requests will be predicated on actual
experience using this method.



                                                   5
III.   OIG ACTIVITY


       A.      AUDITS, INSPECTIONS, EVALUATIONS & REVIEWS

ARC grant operations represent the most significant part of ARC’s programs. We previously issued two
reports related to grant operations with most of the recommendations still being implemented. Below we
provide a brief synopsis of the reports’ findings and recommendations. During the current reporting
cycle, we issued 4 reports involving grantee activities. Three other reports are in process and should be
finalized during the next reporting cycle; one concerning performance measures, one concerning the
financial statement audit and the last concerning ARC grant compliance (not detailed below). In
addition, our office began monitoring activities for three audits pertaining to grantee activities.
All issued reports can be found on the OIG website http://www.arc.gov/oig

Audits of ARC's Grant Operations
We completed a comprehensive review of ARC’s grant management system in April 2008. The audit
revealed the system had data conversion, entry and internal processing errors. Additionally, inadequate
resources had been allocated to ensure timely completion of the project/system and to provide for
system documentation. System access and security features were not controlled appropriately and there
was only a single person knowledgeable of the system internals. Ten recommendations to address these
findings resulted from the audit.

A complement to the grant management system audit was an inspection which focused on ARC’s grant
administration and monitoring. The inspection report discussed ARC’s control policies and grant
monitoring processes. ARC grants made to foster economic growth and to address other concerns in the
Appalachian region are primary to ARC and we placed great emphasis on providing recommendations
that would improve the process. The inspection report was issued in August 2009 and made 17
recommendations. The recommendations were wide ranging but addressed: development and
enforcement of policies, development of grant monitoring plans, improving supervisory oversight,
training, metric reporting, documentation, file organization, tracking grantee characteristics, and controls
to safeguard grant files.

Audits of ARC's Grantees
Four audits reports were issued to a West Virginia grantee concerning four different grants. These reports
made 15 recommendations related to the findings which concern inadequate payroll documentation, the
use of estimated salary and related costs instead of actual costs, improper locations of facilities, and
missing and/or late reports of activity. As a result of these findings, recommendations were made for
ARC to recover $194,243 in grant funds. Management has not agreed to recovery of these funds, and we
continue to seek resolution of this issue and more importantly the surrounding findings that resulted in
this recommendation.

In-process Audits and Inspections
As discussed above, we are providing oversight of a contract auditor examining ARC’s performance
metrics, reporting, and usage.




                                                     6
The 2009 financial statement audit has not been issued and is now over four months late. Some of the
issues contributing to the audit’s late completion included: getting timely and accurate financial
information from child agencies (ARC funds under the control of other agencies); preparing the
Statement of Financing footnote disclosure; and ensuring records were kept accurately, especially
ensuring the accuracy of the budgetary accounts.

ARC has had difficulties complying with federal agency Parent-Child, reporting requirements. As a
parent organization, ARC is much smaller than its children (and smaller than most other parent
agencies). ARC’s funding, exclusive of highway funding, provided to its child agencies is not material
to any of its children and therefore is not audited by the children at the lower materiality level needed for
ARC’s audit needs. This has a negative impact on ARC’s reporting and substantially increases the
amount of work required by accounting and auditing personnel to support an unqualified financial
statement opinion.

For instance, ARC staff regularly needs to ensure that the child agencies are providing timely reports,
that the numbers on the reports (as previously reported and current), the posting of those numbers to
ARC records, the cumulative balance, and the results of activities, are correct. Also, outside accountants
were needed to help reconcile some of the federal activity. In addition, ARC management had to
develop experience with the internal controls and processes at the other agencies to make affirmations to
the auditors that the reported results from the child agencies were correct and then it had properly
disclosed those results (ARC has been forced to move to and adopt the more onerous federal accounting
standards in lieu of generally accepted accounting standards to report its financial status and activities).
Lastly, ARC auditors need to perform testing on the child agency data to satisfy themselves as to its
accuracy. All of these processes take time and increase costs.

Peer Review
Offices of Inspectors General (OIGs) performing audits are required to perform (and undergo) reviews
of other OIG offices every three years to ensure policies and/or procedural systems are in place that
provide reasonable assurance of compliance with government auditing standards (GAS). ARC
completed a peer review of the Federal Election Commission OIG and issued a report on its system of
quality controls on March 28, 2008. Recently, CIGIE issued new guidance for peer reviews and we
have been implementing changes to help ensure conformity with them. However, we note that the Peer
Review concerns itself foremost with OIG internally generated audits conducted under GAS. The ARC
OIG relies on contract auditors for its GAS audits; and for its internal review work relies on CIGIE’s
Inspection guidelines. The Denali Commission’s OIG has a similar arrangement for its activities and
was granted a prolonged deferral of its peer review. Our office has been told that a temporary deferral
for its peer review has been granted and plans to request a prolonged deferral period similar to that of
the Denali Commission. We are scheduled to perform a peer review of the Election Assistance
Commission in 2012.

We also recently contracted for the audit of three grants to review compliance with grant requirements,
controls, and grant objectives.


       B.      INVESTIGATIONS

The Inspector General Act of 1978, as amended, provides that the IG may receive and investigate
complaints or information concerning the possible existence of an activity constituting a violation of

                                                     7
law, rules, or regulations; mismanagement; gross waste of funds; or abuse of authority. The OIG does
not employ criminal investigators. When the need has arisen, the matter has been referred to the
Federal Bureau of Investigation or assistance was contracted with another Federal OIG. Also, the
results of investigations may be referred to the appropriate Federal, State, or local prospective authorities
for action.

As a result of the computer security review performed by the DHS OIG, an investigation was opened
and certain personnel actions taken. The investigation is still awaiting the resolution of a referral to
another law enforcement agency. ARC itself has taken all necessary actions resulting from the audit and
subsequent investigation.

Previously, the OIG referred a case involving ARC funding to the Tennessee Valley Authority’s OIG for
investigation. The investigation is still ongoing.



       C.      OTHER

Requests for Information
Each year we receive and comply with requests for information from various governmental entities
compiling statistics on OIG offices or their auditee agencies. CIGIE requests information for its annual
OIG profile update and compilation of OIG statistics. The yearly compilation summarizes the results of
audit activities for of all federal OIG offices. Information provided concerns the dollar value of
management decisions related to questioned costs and funds put to better use and OIG recommendations
related to questioned costs. The House Committee on Oversight and Government Reform, also with
some regularity, requests information concerning the number and type or status of our recommendations.
Lastly, we comply with information requests from other government regulatory bodies. For example,
previously GAO requested us to provide survey information on governance and the role of the inspector
general. Their requests involved our office’s allocation of resources and the number of open
recommendations.

OIG Policy Manual
The policy manual, after many months of effort has been completed. Many of its guidelines have
already been implemented and can apply to many types of engagements, but it was specifically written
to help ensure compliance with generally accepted government auditing standards.

Electronic Audit Workpapers
The OIG is aware of the benefits of electronic work papers for improving audit efficiency. In particular,
we believe that an improved indexing and numbering system, together with an improved supervisory
review structure could be beneficial. We have recently reviewed the most common electronic
workpapers in use by federal agencies. Our budget request for FY2011 includes funding to implement
electronic workpapers.

Recommendation Tracking Database
ARC-OIG has implemented a recommendation tracking database. The design of the database and some
of the customization for ARC-OIG’s use was provided by another OIG for which we are appreciative.
The database is also available to selected ARC personnel, who can access the database at any time to
review the status of all open and closed recommendations, and update the implementation progress of
open recommendations.

                                                     8
Implementation of OIG Reform Act
The OIG has implemented all of the requirements of P.L. 110-409, The Inspector General Reform Act
of 2008. We also completed an upgrade of our website and now have the ability to receive anonymous
reports of fraud, waste, and abuse. Details below.

Going Green
ARC management has implemented green measures within the organization's internal operations. For
example, a document scanning system has been linked to ARC’s e-mail system. Management, in a
written response to our draft report on ARC's grant management system stated, “We have had
preliminary discussion with our state partners about the need to move to a paperless application process,
and will pursue this more vigorously within this fiscal year.” Reduction in paper utilization can reduce
cost, improve the timeliness of management decisions through better document storage and retrieval,
and helps to reduce demands on our earth's ecological systems.

Our office, in alignment with management's initiative, is committed to “going green” and we continue to
work toward that end. To date, our office has made substantial strides in working with contracted
auditors and issuing reports electronically.


IV.    REPORTING FRAUD, WASTE, AND ABUSE

A region wide toll-free hotline was previously established to enable direct and confidential contact with
the ARC OIG in line with governmental and longstanding OIG initiatives as identified in the IG Act of
1978; to afford opportunities for identification of areas subject to fraud, waste, or abuse. Also, in
accordance with the Inspector General Reform Act of 2008, the ARC OIG implemented another
communication channel allowing anonymous reporting of fraud, waste or abuse via a link on our website’s
home page. The web link is, http://ig.arc.gov/. However, with respect to the telephone hotline calls,
contacts with the ARC OIG relative to public complaints or concerns continue to be primarily received
through ARC staff, on regular OIG phone lines, or from other OIG offices.

Also, numerous hotline calls were received with respect to matters for which other agencies have
jurisdiction. This resulted primarily from the ARC OIG hotline apparently being the first such OIG
listing in some telephone directories, resulting in ARC OIG being contacted by citizens who did not
know the appropriate agency for handling their concerns. The ARC OIG facilitated the complaint
process by identifying the applicable agency based on complainant information and providing the
correct OIG hotline number.


V.     LEGISLATIVE AND REGULATORY REVIEW

The OIG continues to review and provide comment on legislation germane to the OIG and the OIG
community. Our comments are provided to the CIGIE for incorporation with comments from all other
OIGs.




                                                    9
                                                                                                          APPENDIX A



             SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS
                       ISSUED APRIL 1, 2009 TO SEPTEMBER 30, 2009




Report No.                       Report Title/Description              Program Dollars or   Questioned/       Funds to Better
                                                                        Contract/Grant      Unsupported          Use***
                                                                           Amount*            Costs**

              Memorandum Report on Review of Mission West
              Virginia, Inc., Hurricane, West Virginia, Striving for
 10-01        Technological Empowerment While Providing                                     $ 55,579
                                                                         $ 196,145
              Unlimited Potential, ARC Grant Number:
              WV-14468
              Memorandum Report on Review of Mission West
              Virginia, Inc., Hurricane, West Virginia, Striving for
 10-02        Technological Empowerment While Providing
                                                                           150,000           48,117
              Unlimited Potential, ARC Grant Number:
              WV-14468-C1
              Memorandum Report on Review of Mission West
              Virginia, Inc., Hurricane, West Virginia, Striving for
 10-03        Technological Empowerment While Providing                    113,147           83,961
              Unlimited Potential, ARC Grant Number:
              WV14468-C2
              Memorandum Report on Review of Mission West
              Virginia, Inc., Hurricane, West Virginia, Striving for
              Technological Empowerment While Providing
 10-04        Unlimited Potential, ARC Grant Number:                       143,745            6,586
              WV14468-C3

TOTALS                                                                    $ 603,037         $ 194,243            $ 0.00




                                                             10
                                                                                 APPENDIX B



            SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS
                        QUESTIONED OR UNSUPPORTED COSTS      ($ in thousands)


                                           No. of         Questioned   Unsupported
                                           Reports          Costs         Costs

A.   For which no management decision         0             $0              $0
     was made by the commencement of
     the reporting period

B.   Which were issued during the             4            $ 194            $0
     reporting period

     Subtotals (A + B)                        4            $ 194            $0

C.   For which a management decision
     was made during the reporting
     period

     (i)      dollar value of disallowed      0             $0             $ 0
              costs



     (ii)     dollar value of costs not       4            $ 194           $ 0
              disallowed

D.   For which no management decision         0             $0              $0
     has been made by the end of the
     reporting period

E.   Reports for which no management          0             $0              $0
     decision was made within 6 months
     of issuance




                                                     11
                                                                                                APPENDIX C



     SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS WITH
 RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE AND SUMMARY OF
                          MANAGEMENT DECISIONS



                                                                   No. of      Dollar Value
                                                                   Reports   ($ in thousands)

A.   For which no management decision was made by the                 0           $0
     commencement of the reporting period

B.   Which were issued during the reporting period                    0           $0

     Subtotals (A + B)                                                0           $0

C.   For which a management decision was made during the
     reporting period

     (i)      dollar value of recommendations that were
              agreed to by management

              --based on proposed management action                   0           $0

              --based on proposed legislative action                  0           $0


     (ii)     dollar value of recommendations that were not           0           $0
              agreed to by management



D.   For which no management decision has been made by the            0           $0
     end of the reporting period

E.   Reports for which no final management decision was               0           $0
     made within 6 months of issuance




                                                              12
                                                                           APPENDIX D


      SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE AND SUMMARY OF
                             MANAGEMENT ACTIONS      ($ in thousands)

                                                                       Amounts
                                                         Amounts     Agreed to by
                                           Number of   Recommended   Management
                                            Reports       by OIG     (Disallowed)

              OIG Audit
               Reports

A.     For which final action by              0           $   0         $   0
       management had not been taken
       by the commencement of the
       reporting period

B.     On which management decisions          0           $ 0          $    0
       were made during the reporting
       period

C.     For which final action was taken
       by management during the
       reporting period

       (I)    Dollar value of                 0           $   0         $ 0
              recommendations that
              were actually completed


       (ii)   the dollar value of             0           $   0         $ 0
              recommendations that
              management has
              subsequently concluded
              should not or could not be
              implemented or
              completed

 D.      For which no final action had        0            $ 0         $ 0
         been taken by the end of the
         reporting period




                                              13
                                                                                          APPENDIX E


                                  DEFINITIONS OF TERMS USED


The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                       A cost which the Office of Inspector General (OIG) questioned
                                      because of an alleged violation of a provision of a law, regulation,
                                      contract, or other agreement or document governing the
                                      expenditure of funds; such cost is not supported by adequate
                                      documentation; or the expenditure of funds for the intended
                                      purpose is unnecessary or unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was not
                                      supported by adequate documentation at the time of the audit.

Disallowed Cost                       A questioned cost that management, in a management decision,
                                      has sustained or agreed should not be charged to the Commission.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be used
                                      more efficiently if management took actions to implement and
                                      complete the recommendation.

Management Decision                   Management's evaluation of the findings and recommendations
                                      included in the audit report and the issuance of a final decision by
                                      management concerning its response to such findings and
                                      recommendations, including actions concluded to be necessary.
                                      Interim decisions and actions are not considered final management
                                      decisions for the purpose of the tables in this report.

Final Action                          The completion of all management actions that are described in a
                                      management decision with respect to audit findings and
                                      recommendations. If management concluded that no actions were
                                      necessary, final action occurs when a management decision is
                                      issued.




                                                    14
       THE OFFICE OF INSPECTOR GENERAL

      APPALACHIAN REGIONAL COMMISSION

                serves American taxpayers

     by investigating reports of waste, fraud, or abuse

                 involving Federal funds.


                If you believe an activity is

     wasteful, fraudulent, or abusive of Federal funds,

                        please call

                  toll free 1-800-532-4611

  or (202) 884-7667 in the Washington metropolitan area


                        or write to:


                Office of Inspector General

            Appalachian Regional Commission

         1666 Connecticut Avenue, NW, Rm. 700

               Washington, DC 20009-1068


        Information can be provided anonymously.

Federal Government employees are protected from reprisal,

and anyone may have his or her identity held in confidence.
On the Cover:
Grotto Falls on Trillium Gap Trail
Great Smoky Mountains National Park
Photo courtesy of National Park Service




                           Appalachian Regional Commission

                               Office of Inspector General
                         1666 Connecticut Avenue, NW, Suite 700
                              Washington, DC 20009-1068
